                                                        NATIONAL SCIENCE FOUNDATION 

                                                         OFFICE OF INSPECTOR GENERAL 

                                                           OFFICE OF INVESTIGATIONS 


                                                  CLOSEOUT MEMORANDUM

 Case Number: I090400l0                                                                                    Page 1 of 1



         We investigated a universityl at which senior personnel had been prosecuted by local authorities2 for
         misuse of university funds, resulting in a conviction of one party and a deferred adjudication of
         another (the subject)3 after a mistrial. We determined that the university funds misused by these
         parties were state funds, and that no NSF funds were involved.4

         Because, however, the subject had incurred a substantial restitution obligation, and had transferred to
         a faculty position at another university,S we questioned the subject's present responsibility for
         handling federal funds, and recommended that NSF debar her for three years. NSF accepted our
         recommendation and issued a notice of proposed debarment to the subject.

         The subject challenged the proposed debarment through counsel, and eventually negotiated an
         administrative agreement with NSF in lieu of exclusion, under which the subject is required to:

              • 	 take an ethics course annually the next two years;
              • 	 make an annual report to NSF of training taken and proposals (if any) submitted during the
                  three years of the agreement; and
              • 	 abide by conditions if she does submit proposals or serve as PIon grants (i.e., the proposal
                  has to note the existence of the administrative agreement, the universitY has to approve any
                  expenditures she makes as PI, and any grants on which she is PI will be administered on a
                  reimbursable basis r~ther than through advance payments).

         Additionally, the subject cannot be an NSF reviewer for three years.

         This action adequately protects federal interests. Accordingly, this case is closed.




         4Of the NSF awards to the university that were active at the time ofthe misconduct, only one was large enough to
         ~iliiiliilliiie offunds for the misconduct, n a m e l y , _ .




NSF OIG Form 2 (11102)
